WAIVER
SUPREME COURT OF THE UNITED STATES
No.

21-296

AMN Services, LLC

Verna Clarke, et al.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing SyStem. The systein will prompt you to enter
your appearance first.)
0

I am not presently .a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street NE, Washington, D.C. 20543).

Signature:

August 30, 2021

Date:

(Type or print) Name ,Kye D. Pawlenko
Mr.

Cl Ms.

0 Mrs.

0

Miss

Hayes Pawlenko LLP

Firm

1414 Fair Oaks Avenue, Suite 2B

Address

1

City & State

!South Pasadena, CA

Phone

[626.806.4357

I

Zip 91030

Email kpawlenko@helpcounsel.cOM-

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is requi ed. RECEIVED
Paul D. Clement
cc:

EP - 8 2021

OFFICE OF THE CLER
SUPREME COURT U.:

